DECLARATION OF FRANKLIN L. COX
PURSUANT TO 28 U. S.C.S 1746
CERTIFICATE OF COMPLIANCE WITH WORD LIMITATIONS

I, Franklin L. Cox, hereby declare as follows:
1. My name is Franklin L. Cox . I am a United States citizen over eighteen
(18) years of age and residing in Dallas, Texas.
2. I have personal knowledge of the facts stated in this declaration , and
if called as a witness, I could and would competently testify to facts stated herein.
3. I am capable of making this Declaration pursuant to 28 U. S, C.§ 1746,
Franklin L. Cox is the preparer of the documents stating that the brief in booklet
form complies with the word limitations. Prepared under Rule 33.1.
4.1 declares that the Petition for Writ of Certiorari filed in the above -styled
matters in booklet form complies with the type-volume limitation of Rule 33.1
5. Certification is based on the word count of the word-processing program
used in preparing the petition, Corel WordPerfect X9.
6. In booklet form the above-styled document contains 3,955 words, exclud­
ing the parts of the petition that are exempted by Supreme Court Rule 33.19d).

I declare under penlty of perjury that the foregoing is true and correct.

Executed on July 7. 2020.

‘iL Ly#
^ Franklin L. Cox

'

